No._ _ _ __

Jn~bt

SS>upremt ~ourt of tbe llnittb SS>tates
ALFORNIA JASON WALL, JR.,

Petitioner,

v.

UNITED STATES OF AMERICA,

Respondent.

AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 6th day of November,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Terry Michael Meinecke
Office of The United States Attorney
Middle District of North Carolina
101 South Edgeworth Street, 4th Floor
Greensboro, NC 27 401-0000
(336) 333-5351
Counsel for Respondent

Karen R. Taylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Seth A. Neyhart
Counsel of Record
N.C. Bar No. 27673
331 W. Main St., Ste. 401
Durham, NC 27701
Phone: (919) 229-0858 Fax: (919) 435-4538
Email: setusn@hotmail.com
Counsel for Petitioner

Signed and subscribed before me on this 6th day of November, 2020.

~e~~

Bradford ~otazy

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. #7241026
Commission Exp. 4/30/2021

